 DEPARTMENT        OF HOMELAND SECURITY
 Contents/Abbreviations

      Office of Inspector General



    Homeland Security Information Network
      Could Support Information Sharing
              More Effectively




      Office of Information Technology
OIG-06-38                          June 2006
        Homeland Security Information Network Could
        Support Information Sharing More Effectively
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528



                                                                       Homeland
                                                                       Security

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report assesses how well the Homeland Security Information Network (HSIN) supports
information sharing across federal, state, and local entities to prevent and deter terrorist activities;
and, prepare for and respond to emergencies and natural or man-made disasters. It is based on
interviews with employees and officials of the Office of Intelligence and Analysis and the Office of
Operations Coordination, as well as other relevant agencies and organizations, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.


                                              Richard L. Skinner
                                              Inspector General
Contents/Abbreviations


  Executive Summary ....................................................................................................................... 3

  Background .................................................................................................................................... 4

  Results of Audit .............................................................................................................................. 9

          HSIN Planning and Development Efforts Have Had Limited Effectiveness ....................... 9

          HSIN Needs To Support Information Sharing More Effectively ........................................ 20

          Other Major Challenges....................................................................................................... 30

  Recommendations........................................................................................................................ 34

  Management Comments and OIG Evaluation ............................................................................. 35

Appendices
  Appendix A:            Scope and Methodology..................................................................................... 37
  Appendix B:            Management Response to Draft Report ...............................................................39
  Appendix C:            Major Contributors to this Report ...................................................................... 43
  Appendix D:            Report Distribution...............................................................................................44

Abbreviations
  DHS                   Department of Homeland Security
  DIA                   Defense Intelligence Agency
  GAO                   Government Accountability Office
  HSIN                  Homeland Security Information Network
  HSOC                  Homeland Security Operations Center
  IT                    Information Technology
  JRIES                 Joint Regional Information Exchange System
  LEO                   Law Enforcement Online
  OIG                   Office of Inspector General
  RISSNET               Regional Information Sharing System Network




                   Homeland Security Information Network Could
                   Support Information Sharing More Effectively
Contents/Abbreviations


Figures
  Figure 1      HSIN Structure.........................................................................................................5

  Figure 2      JRIES/HSIN Timeline .............................................................................................7

  Figure 3      Federal Situational Awareness Information and Intelligence Sharing Systems ....11

  Figure 4      The Intelligence Sharing Model as Applied to HSIN............................................17

  Figure 5      Documents Posted to HSIN-Secret........................................................................25

  Figure 6      HSIN Logons .........................................................................................................27

  Figure 7      HSIN Postings........................................................................................................28

  Figure 8      Comparison of Total Postings by Selected User Groups in January 2006 ............29

  Figure 9      HSIN Challenges ...................................................................................................30




             Homeland Security Information Network Could
             Support Information Sharing More Effectively
Executive Summary
                          State and local personnel have opportunities and capabilities not possessed by
                          federal agencies to gather information on suspicious activities and terrorist
                          threats. By working together, the various levels of government can maximize
                          the benefits of information gathering and analysis to prevent and respond to
                          terrorist attacks. The Homeland Security Act of 2002 assigned responsibility
                          to DHS to coordinate the federal government’s communications relating to
                          homeland security with state and local government authorities, the private
                          sector, and the public. As part of this responsibility, the Act assigned the
                          Information Analysis and Infrastructure Protection directorate within DHS, in
                          conjunction with its chief information officer, responsibility to establish a
                          secure communications and information technology (IT) infrastructure that
                          allows federal, state, and local governments, and other specified groups to
                          access, receive, and analyze data, and to disseminate information acquired by
                          DHS as appropriate. 1 To meet this mandate, DHS is implementing the
                          Homeland Security Information Network (HSIN).

                          As part of our ongoing responsibility to assess the efficiency, effectiveness,
                          and economy of departmental programs and operations, we conducted a
                          review of HSIN. The objectives of this review were to (1) identify DHS’
                          plans and activities for sharing information with state and local governments;
                          (2) determine how well HSIN supports these plans and activities; and, (3)
                          identify challenges to information sharing among federal, state, and local
                          government agencies. The scope and methodology of this review are
                          discussed in Appendix A.

                          Due to time pressures, DHS did not complete a number of the steps essential
                          to effective system planning and implementation, hindering the success of the
                          HSIN system. Specifically, DHS did not clearly define HSIN’s relationship to
                          existing collaboration systems and also did not obtain and address
                          requirements from all HSIN user communities in developing the system. In
                          addition, DHS did not adequately evaluate each of its three major HSIN
                          releases prior to their implementation. Further, the department has not
                          provided adequate user guidance, including clear information sharing
                          processes, training, and reference materials. Without establishing a baseline
                          and developing specific performance measures, DHS has no effective way to
                          track or assess information sharing using HSIN.



1
 The Information Analysis and Infrastructure Protection directorate no longer exists under the current DHS organization.
Under the new DHS structure created as a result of the Secretary’s 2005 Second Stage Review, former functions of the
directorate were divided among the Office of Intelligence and Analysis, Preparedness, and Operations Coordination.

                           Homeland Security Information Network Could                                           Page 3
                           Support Information Sharing More Effectively
             As a result of these system planning and implementation issues, HSIN is not
             effectively supporting state and local information sharing. Although users
             generally like the web portal technology because of its user-friendliness and
             flexibility, those we interviewed said they are not committed to the system
             approach. Users are confused and frustrated, without clear guidance on
             HSIN’s role or how to use the system to share information effectively.
             Because some lack trust in the system’s ability to safeguard sensitive
             information, and because the system does not provide them with useful
             situational awareness and classified information, users do not regularly use
             HSIN. Instead, users resort to pre-existing means such as related systems and
             telephone calls to share information, which only perpetuates the ad hoc, stove-
             piped information-sharing environment that HSIN was intended to correct.
             Resources, legislative constraints, privacy, and cultural challenges–often
             beyond the control of HSIN program management–also pose obstacles to
             HSIN’s success.

             To ensure effectiveness of the HSIN system and information sharing
             approach, we are recommending that the Director, Office of Operations
             Coordination, Department of Homeland Security:

             1. Clarify and communicate HSIN’s mission and vision to users, its relation
                to other systems, and its integration with related federal systems.
             2. Define the intelligence data flow model for HSIN and provide clear
                guidance to system users on what information is needed, what DHS does
                with the information, and what information DHS will provide.
             3. Provide detailed, stakeholder-specific standard operating procedures, user
                manuals, and training based on the business processes needed to support
                homeland security information sharing.
             4. Ensure crosscutting representation and participation among the various
                stakeholder communities to determine business and system requirements,
                and encourage community of interest advisory board and working group
                participation.
             5. Identify baseline and performance metrics for HSIN, and begin to measure
                effectiveness of information sharing using the performance data compiled.

Background
             HSIN is a secure, unclassified, web-based communications system that serves
             as DHS’ primary nation-wide information sharing and collaboration network.
             HSIN offers real-time chat and instant messaging capability, as well as a
             document library that contains reports from multiple federal, state, and local
             sources. HSIN supplies suspicious incident and pre-incident information,
             mapping and imagery tools, 24x7 situational awareness, and analysis of


             Homeland Security Information Network Could                              Page 4
             Support Information Sharing More Effectively
terrorist threats, tactics, and weapons, too. The network provides connectivity
between DHS’ Homeland Security Operations Center (HSOC), critical private
industry and federal, state, and local organizations responsible for or involved
in combating terrorism, responding to critical incidents, and managing special
events. The HSOC, which provides oversight responsibility for HSIN, is the
primary national-level center for real-time threat monitoring, domestic
incident management, and information sharing.

Across the various levels of government, a number of communities share
information through HSIN, including law enforcement, emergency
management, fire departments, homeland security, counter-terrorism, and the
National Guard. As shown in Figure 1, HSIN is comprised of a group of
portals organized along the lines of the various community groups. Users
within the communities access HSIN directly through the internet; there are
no special software requirements. All users have access to the counter-
terrorism portal. However, access to the remaining portals is limited to the
members of each corresponding community, with access provided to
nonmembers on an as needed basis.

                                     HSIN Structure

                                                 Law
                                             Enforcement
                                               Analysis
                       Emergency                                           Law
                       Management                                      Enforcement



              Intelligence
             (DHS’ Internal                                                       Critical
               Network)                                                           Sectors
                                                   Counter
                                                  Terrorism



                    Critical
                                                                             International
                Infrastructure


                                     Critical
                                 Infrastructure               Secret
                                    Warning                    Level
                                    Network



Figure 1: HSIN Structure


The current HSIN portals include:


Homeland Security Information Network Could                                                  Page 5
Support Information Sharing More Effectively
   •    HSIN Counter-Terrorism – the common portal for all federal, state,
        and local government agencies to share information relating to
        counterterrorism and incident management.

   •    Law Enforcement Analysis – the portal for all major law enforcement
        intelligence centers.

   •    HSIN Law Enforcement – the portal for all departments that manage
        law enforcement sensitive data.

   •    HSIN Critical Sectors – the portal designed to enhance the protection,
        preparedness, and crisis communication and coordination capabilities
        of the nation’s 17 critical infrastructures.

   •    HSIN International – the portal for information sharing and
        collaboration with foreign components during major crises.

   •    HSIN-Secret – the portal used to support classified information
        sharing among all state emergency operation centers and selected
        police departments.

   •    HSIN Critical Infrastructure Warning Network – a government
        network within HSIN that provides mission-critical, survivable
        connectivity and communications.

   •    HSIN Critical Infrastructure – a regionally coordinated portal used by
        the private and public sectors for local, regional, and national
        information sharing and all hazards alerts and warnings.

   •    HSIN Intelligence – an internal DHS intelligence and analysis
        network.

   •    HSIN Emergency Management – the portal that provides connectivity
        among federal, state, territorial, and local government emergency
        managers during major incidents.

HSIN was created as an extension of a pre-existing system, the Joint Regional
Information Exchange System (JRIES). Figure 2 provides a timeline, key
milestones, and system ownership for JRIES and HSIN from inception until
the present.




Homeland Security Information Network Could                                Page 6
Support Information Sharing More Effectively
                                                                     JRIES/HSIN Timeline


                                     2002                    2003                2004                 2005                2006


                            System                        JRIES         JRIES         HSIN              HSIN State and Local Pilot
                            and
                            Owner:                         DIA           DHS          DHS                          DHS


                                            JRIES Pilot                 DHS Expands
                                                                         JRIES and
                                                                        Renames as
                            Key                                            HSIN
                            Milestones:
                                                                     JRIES              DHS Moves HSIN to Portal
                                                                  Transferred            Technology and Starts
                                                                    to DHS                 State HSIN Pilots



                           Figure 2: JRIES/HSIN Timeline


                           JRIES began in December 2002 as a grassroots pilot system to connect the
                           California Anti-Terrorism Information Center, the New York Police
                           Department, and the Defense Intelligence Agency (DIA). These groups
                           designed JRIES, which was first deployed in February 2003, to facilitate the
                           exchange of suspicious activity reports, register events potentially related to
                           terrorist activity, and foster real-time intelligence and law enforcement
                           collaboration in a secure environment across federal, state, and local
                           jurisdictions. JRIES used “Groove” software to enable multiple groups to
                           share the information securely. 2 A JRIES executive board, comprised of
                           representatives from the participating groups, provided guidance and structure
                           to help manage the system. JRIES proved useful during the northeast
                           blackout in 2003 when information posted on the system allowed users across
                           the country to quickly learn that the event was not related to terrorism. The
                           system provided a very simple and efficient way for the law enforcement
                           community to obtain situational awareness concurrently, without the need for
                           hundreds of phone calls.

                           Although DIA originally operated and maintained JRIES, DIA transferred
                           program management of the system to DHS in September 2003, due to
                           funding constraints. DIA was concerned that managing JRIES to support
                           domestic intelligence activities conflicted with its military intelligence role.
                           As of February 2004, approximately 100 organizations–with more than 1,000


2
  Groove Virtual Office is a Microsoft application that has five main capabilities: synchronization, offline use, firewall
traversal, always-on encryption, and bandwidth optimization(Groove2,5). The application also tracks contacts, alerts
users to new activities, and provides a series of personal communications mechanisms(Groove2,5).

                            Homeland Security Information Network Could                                                              Page 7
                            Support Information Sharing More Effectively
law enforcement and intelligence analysts from federal, state, and local
government agencies–were using JRIES.
After acquiring JRIES, DHS recognized that the system’s utility could be
expanded beyond its existing counter-terrorism intelligence and threat
awareness mission because JRIES met DHS’ requirements for senior
executive communications, crisis planning and management, and coordination
and communications with first responder, emergency management, and
military organizations. As such, in February 2004, DHS announced the
expansion of JRIES as its primary communication, collaboration, situational
awareness, and information-sharing system. The DHS Secretary renamed
JRIES as HSIN in order to reflect the system’s broader scope. By December
2004, DHS had deployed HSIN to all 50 states, 53 major urban areas, five
U.S. territories, the District of Columbia, and several international partners.
DHS extended HSIN access beyond the law enforcement community to
include state homeland security advisors, governors’ offices, emergency
managers, first responders, the National Guard, and an international
component. DHS equipped each location with two laptops installed with the
Groove software.

In March 2005, because of the lack of scalability to accommodate a large
increase in users, DHS decided to move HSIN away from the Groove
software and to develop a series of web-based portals as replacements.
Nonetheless, DHS continues to operate both the Groove software and a portal
to support the law enforcement community.

DHS has expanded the role of HSIN through a state and local initiative. The
goals of this initiative are to identify and address requirements of state and
local communities of interest, as well as to provide robust training to promote
effective use of the network. As of January 2006, eight states had deployed
HSIN throughout their respective departments and agencies. Declaring HSIN
the primary system for operational information sharing and collaboration, the
DHS Secretary asked that the department’s senior managers as well as
headquarters and field personnel support the ongoing growth and utilization of
HSIN.

Prior to DHS’ implementation and expansion of HSIN, reports by various
nonprofit, industry, audit, and congressional organizations documented
problems with homeland security information sharing and the need for a
single, effective collaboration system. Specifically, in August 2003, the
Government Accountability Office (GAO) reported the results of its survey,
which showed that federal, state, and city government officials did not
routinely share information on terrorist threats, methods, or techniques. GAO
stated that the information that was shared was not perceived as timely,


Homeland Security Information Network Could                               Page 8
Support Information Sharing More Effectively
                          accurate, or relevant. 3 Further, in two key reports, the Markle Foundation
                          stressed the importance of creating a decentralized network of information
                          sharing and analysis to address the challenge of homeland security. 4

                          Subsequent to HSIN’s implementation, other reports revealed problems with
                          the system. For example, in a September 2004 report, GAO identified 34
                          networks that supported homeland security functions–six of the 34 were used
                          to share information with state and local governments, while four shared
                          information with the private sector. 5 Further, citing significant problems with
                          HSIN development and deployment, the U.S. House Committee on Homeland
                          Security Democratic Staff reported in 2006 that DHS had failed in its promise
                          to create a single, effective network for sharing intelligence with state and
                          local officials. 6 The staff reported that police agencies were not sharing
                          sensitive information and that there was a lack of JRIES executive board
                          cooperation with the HSIN program.

Results of Audit

HSIN Planning and Development Efforts
Have Had Limited Effectiveness
                          Due to time constraints, DHS did not follow a number of the steps essential to
                          effective HSIN system planning and development. Specifically, DHS did not
                          clearly define and communicate HSIN’s role, particularly in relation to other
                          systems in use for similar purposes. Further, DHS efforts to obtain input and
                          address requirements from all HSIN user communities were inadequate. Also,
                          the department did not develop clear and complete information sharing
                          policies and procedures or provide system users with sufficient training and
                          reference materials. Further, DHS has yet to develop metrics for assessing
                          HSIN performance in supporting information sharing. Although DHS has
                          taken actions to address some of these issues, more remains to be done.




3
  Efforts to Improve Information Sharing Need to Be Strengthened (GAO-03-760, August 2003).
4
  Protecting America’s Freedom in the Information Age, A Report of the Markle Foundation Task Force, October 7,
2002.
Creating a Trusted Network for Homeland Security, The Second Report of the Markle Foundation Task Force,
December 2, 2003.
5
  Major Federal Networks that Support Homeland Security Functions (GAO-04-375, September 2004).
6
  Leaving the Nation at Risk: 33 Unfulfilled Promises From the Department of Homeland Security, An Investigative
Report by the U.S. House Committee on Homeland Security Democratic Staff, 2006.

                          Homeland Security Information Network Could                                         Page 9
                          Support Information Sharing More Effectively
Accelerated Deployment
                Given concerns about ensuring connectivity and communications across the
                various levels of government in a heightened counter-terrorism environment,
                the HSIN system was implemented according to an accelerated schedule. As
                previously stated, DIA quickly built the original JRIES system after the
                attacks of September 11, 2001, to support information sharing between
                federal, state, and local law enforcement and intelligence agencies. After
                assuming ownership of the system in 2003, however, DHS quickly expanded
                the system to provide access to users beyond this limited group. The HSIN
                strategy was to implement a tool for nation-wide connectivity right away in
                case of major emergencies or terrorist incidents and address operational
                problems and details later.

                In 2004, as DHS was implementing HSIN, pressure to complete the system
                persisted. For example, White House officials issued warnings that terrorists
                were threatening to disrupt the 2004 presidential elections. Correspondingly,
                due to intelligence about possible bomb attacks on specific financial
                institutions, DHS raised the threat level to code orange for parts of the
                banking sector. Such pressures created an environment that was not
                conducive to thorough system planning and implementation; DHS began
                expansion of the system in February 2004, and by December of that same year
                had established connectivity to all 50 states, major cities, and five U.S.
                territories. The rush to implement the system resulted in inadequate definition
                of HSIN’s role with respect to other systems, insufficient identification of user
                requirements, ad-hoc system rollouts, a lack of user guidance, and inadequate
                performance measures.

                Some members of the law enforcement intelligence community raised
                concerns early on that DHS was expanding HSIN access and capability too
                quickly. Specifically, in an April 2004 issue paper, the JRIES executive board
                stated that DHS was proceeding at a rapid rate in implementing the system
                without providing user training on standard operating procedures, laws,
                regulations, and governance policies related to information sharing and HSIN.
                The board contended that this rapid deployment increased the risk of system
                misuse, security breaches, privacy violations, and user confusion as well as
                dissatisfaction. The board pointed out that DHS’ newness as a department
                and its lack of established relationships also hampered its ability to quickly
                gain the trust and commitment of states and major cities to the HSIN
                approach. The board ultimately stopped participating in the HSIN program
                for such reasons.




                Homeland Security Information Network Could                               Page 10
                Support Information Sharing More Effectively
Relationship to Existing Information Sharing Systems Not Clearly Defined
                 According to the Homeland Security Act of 2002, DHS is responsible for
                 establishing an IT infrastructure, i.e., system, for sharing homeland security
                 information with its federal, state, local, and private partners. According to
                 the Act, such DHS efforts are to avoid duplication and consider existing
                 systems. According to Office of Management and Budget Circular A-130,
                 establishing a roadmap that outlines the goals, objectives, and strategies of a
                 system, as well as how the system will fit within the context of the
                 overarching IT environment, is a key means of avoiding duplication.

                 DHS intended HSIN to be the primary tool to help unify the counter-terrorist
                 effort. However, prior to HSIN development, DHS did not assess the current
                 IT environment or the relationship of HSIN to other existing federal systems
                 that served similar missions. Without doing so, DHS could not make
                 comparisons to identify potential areas of duplication or opportunities for
                 sharing information between HSIN and the other existing systems. In Figure
                 3, we identify a number of systems that other federal, state, and local officials
                 use to share situational awareness and intelligence information. Several of
                 these systems have functions and capabilities comparable to those of HSIN.


                                          DHS                                                    DOJ                                DOD
                                                             HSIN-LE-A
                      HSIN-EM




                                                                                                                   SIPRNET
                                                                                           RISSNET
                                HSIN-CT
                                          HSIN-LE




                                                                                 FPS-SPS
                                                    HSIN-S




                                                                                                           NLETS




                                                                                                                             MIRC


                                                                                                                                           OTRS


                                                                                                                                                        IRRIS
                                                                                                                                    DSEL
                                                                          DMIS




                                                                                                                                                  GKO
                                                                                                     LEO




                                                                               Situational Awareness
                                                                         Information and Intelligence Sharing


                                                             State and Local View of Federal Systems

                 Figure 3: Federal Situational Awareness Information and Intelligence Sharing Systems


                 The Department of Justice, for example, has operated the Regional
                 Information Sharing Systems (RISS) program for approximately 25 years to
                 facilitate the exchange of critical information across federal, state, and local
                 law enforcement agencies. Law Enforcement Online (LEO) is another

                 Homeland Security Information Network Could                                                                                            Page 11
                 Support Information Sharing More Effectively
internet-based system that, like HSIN, law enforcement agencies use for
information sharing. In its original HSIN press release in February 2004,
DHS stated that RISSNET and LEO together address a much wider spectrum
of criminal activity than does HSIN. As these systems expanded to include
counter-terrorism and HSIN shifted to an all-crimes approach, the distinctions
among the systems have diminished.

In addition to not conducting an assessment of HSIN’s relationship to other
existing systems, prior to HSIN expansion, DHS did not identify, document,
or communicate to user communities how the system would support
information sharing among federal, state, and local users. Specifically, DHS
did not define the roles and responsibilities of the various stakeholders, what
information would be shared through HSIN, and how the information would
be processed, analyzed, and further disseminated.

It was not until almost two years after HSIN expansion began that DHS made
efforts to clarify its systems relationships and its mission role. In August
2005, DHS assessed the Federal Protective Services Secure Portal System, a
DHS system which supports secure communications and collaboration. This
system, used across the law enforcement community, manages information to
help ensure the safety and security of federal buildings, protection officers,
and visitors. Although HSIN’s mission is broader, DHS’ internal analysis
revealed that it significantly overlaps the mission of the Federal Protective
Services Secure Portal System in supporting the law enforcement community.
The analysis concluded that the two systems should be migrated to a common
service portal.

It was not until August 2005 that DHS drafted a concept of operations for
HSIN. However, the concept of operations document does not identify or
classify the major categories of HSIN users. The document does not provide
details on the variations in work processes corresponding to the different user
communities or how they might apply the system to carry out their different
responsibilities. Further, DHS posted the concept of operations to the HSIN
portals without notifying system users. Therefore, infrequent HSIN users
were unaware of the document’s existence. Senior DHS officials stated that
when they surveyed users they discovered few had read the document.

DHS has taken steps to improve understanding of HSIN. For example, a
Frequently Asked Questions document, created in early fiscal year 2006, helps
clarify the HSIN vision. The document describes HSIN, incentives to using
the system, how it compares to other systems, and how it regulates as well as
safeguards information. Further, DHS has made progress in establishing
interoperability between HSIN and similar federal systems. For example, it
has begun to allow products to be posted and shared between HSIN and

Homeland Security Information Network Could                               Page 12
Support Information Sharing More Effectively
                          RISSNET and LEO, and is working with Department of Justice
                          representatives to achieve complete interoperability in 2006. DHS has begun
                          to coordinate with other intelligence and emergency management officials on
                          ways to achieve interoperability, too.

Ad Hoc System Development and Deployment
                          As a result of its accelerated schedule, DHS did not complete a
                          comprehensive collection or analysis of user requirements prior to HSIN
                          implementation. Consequently, successive rollouts of the HSIN versions were
                          not well planned or adequately evaluated prior to each release.

                          Identification of User Requirements

                          Office of Management and Budget Circular A-11 directs agencies to reduce
                          project risk by involving stakeholders in the design of IT assets. 7 Involving
                          users in requirements helps ensure a better understanding of system users,
                          their technological environments, and the types of content they desire. Where
                          users are not involved in system development, there is no way to ensure that
                          the system will provide for their needed functions.

                          Despite these guidelines, DHS did not sufficiently involve users in the initial
                          design of HSIN. According to a DHS official, the department did not
                          complete an analysis to understand who would potentially benefit from the
                          system. Instead, DHS expanded the system to additional homeland security,
                          emergency management, and other user groups without clearly understanding
                          their needs. In so doing, DHS also did not understand how allowing one
                          group of users access to the system could adversely affect other participants.
                          In general, DHS did not sufficiently gather requirements from the various
                          system user groups. Instead, DHS developed HSIN using the same
                          requirements obtained for JRIES, its predecessor. The JRIES requirements
                          did not address the needs of the broader HSIN user base, but were the limited
                          input of a functional working group of 25 law enforcement officials.

                          Requirements for subsequent HSIN releases were also not well defined. DHS
                          relied solely upon requirements obtained from the law enforcement
                          community when it moved the system from the Groove software to a series of
                          portals in March 2005. DHS designed all of the portals to be identical in
                          terms of applications and services, and assumed that they later could be
                          tailored to meet specific community needs. Other communities, comprised of
                          various officials such as firefighters, the National Guard, state homeland

7
 Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the
President, Office of Management and Budget, June 2005.

                          Homeland Security Information Network Could                                          Page 13
                          Support Information Sharing More Effectively
security advisors, and emergency managers, carry out significantly different
functions and require different system functionality, information, and
reporting capabilities than those considered.

As such, the emergency management portal did not share information with
existing state emergency management systems. In addition, the emergency
management portal was based off of law enforcement requirements such as
“requests for information” and “for your information” postings, and
emergency managers stated they do not use these features. HSIN program
managers had hoped to work with Federal Emergency Management Agency
officials to make the emergency portal useful, but the agency did not provide
user requirements; ultimately, it did not want to take ownership of the portal.
Further, state homeland security advisors said that HSIN postings are too
detailed and do not provide the strategic level of information they need to
perform their duties. Instead, state homeland security advisors obtain the
information they need from other sources.

Our review of two separate listings of HSIN system requirements and user
change requests revealed DHS deficiencies in tracking individual user
community needs as well. We determined that the documentation did not
group the requirements by the different user communities. Further, according
to one official, the change requests that DHS provided were derived from a
limited set of users at the HSOC and not from the broader HSIN user base.

DHS has begun to reach out to the broader user community to gather
requirements input. In November 2005, DHS held a working group meeting
in Jacksonville, Florida, to gather system user input and lessons learned DHS
plans to hold similar quarterly symposiums with users in the future to discuss
issues and gather recommendations for improvement. Additionally, in
January 2006, DHS created the HSIN Advisory Committee to provide
recommendations on the system requirements of users within the various
communities of interest. At the request of the DHS chief information officer,
the DHS Office of Intelligence and Analysis reviewed intelligence information
sharing requirements, independent of technology. DHS officials stated that,
while not a true system requirements document, the final report from this
review will contain a combination of system and business requirements to
support intelligence data flows.

Numerous Ad-Hoc System Rollouts

Effective system development processes include evaluating systems prior to
implementation to ensure that they successfully meet user requirements.
However, according to a DHS comparison of HSIN to a related portal system,
DHS did not evaluate adequately each of its three major HSIN releases prior

Homeland Security Information Network Could                               Page 14
Support Information Sharing More Effectively
                         to their implementation. 8 Technical problems that went undetected given the
                         lack of pre-deployment test and evaluation hindered system performance.

                         For example, DHS implemented one release of the system without first
                         obtaining the legal approvals necessary for posting information contained in
                         the HSIN document library. The library included daily and periodic reports
                         from multiple sources such as the Homeland Security Operations Morning
                         Brief and the DHS Cyber Report, constituting a critical resource and selling
                         point of HSIN. Lacking a pre-deployment review that would have identified
                         this issue early on, DHS had to shut down the entire document library for
                         three to four months until the needed approvals could be obtained.

                         Similarly, DHS did not assess in advance the impact that HSIN expansion to
                         an increased number of users would have on system performance. According
                         to a DHS official, the additional users logging onto HSIN impacted the
                         system’s speed. Because system processing became so slow, new and
                         infrequent users stopped using the system. It was at this point that DHS
                         switched to the web portal technology after realizing that the Groove software
                         was not able to meet the requirements of additional HSIN users.

                         DHS’ rollout of HSIN to counties was problematic, too. The county rollout
                         was an effort to connect DHS to major city police chiefs, sheriffs, and first
                         responders in all 3,086 counties nation-wide. However, DHS did not
                         adequately assess the impact that connecting directly to the counties would
                         have on other system stakeholders. DHS also had not involved the states in
                         this decision to connect to the counties. After beginning the rollout, DHS
                         received criticism from state officials who felt that the states had been
                         bypassed. At this point, DHS shifted the scope of the HSIN deployment from
                         a county-level back to a state-level rollout.

                         State and local officials expressed gratitude towards DHS for shifting to the
                         state level. Both DHS and state and local officials have since begun working
                         on interoperability, information sharing protocols, and registration and vetting
                         procedures. In some states, DHS is working to integrate HSIN with state
                         systems, while in others it is creating new portals for the states. Further, the
                         HSOC has begun to reach out to the other DHS components to encourage
                         them to use the system. In January 2006, the DHS Secretary sent a memo to
                         all department components affirming HSIN as the primary system for
                         information sharing and collaboration within DHS and with its security
                         partners.

8
 Comparative Analysis of Homeland Security Information Network and the Federal Protective Service Secure Portal
System in Consideration of the Department of Homeland Security Enterprise Portal, Department of Homeland Security,
Directorate of Information Analysis and Infrastructure Protection, August 19, 2005.

                          Homeland Security Information Network Could                                       Page 15
                          Support Information Sharing More Effectively
User Guidance Needs Improvement
                        According to federal regulations, agencies should provide users with the
                        skills, knowledge, and training needed to manage information resources
                        effectively. However, DHS has not provided HSIN users with adequate
                        guidance, training, or reference materials on what or how information should
                        be shared using HSIN.

                        Information Sharing Processes Need To Be Defined

                        According to Office of Management and Budget Circular A-130, agencies
                        should simplify or redesign work processes before implementing new
                        technology. 9 Such efforts, including defining and documenting business
                        processes, can demonstrate to users how the system can be used to improve
                        their work activities. However, DHS implemented HSIN without defining the
                        sharing process for homeland security information. As previously discussed,
                        the goal was to establish nation-wide HSIN connectivity first, and then decide
                        on the information to be shared. Without a data flow process, DHS is unable
                        to provide clear guidance on the information sharing process. As a result,
                        users are not sure what information should be shared or in what format.

                        As of November 2005–almost two years after assuming responsibility for
                        HSIN–DHS still had not modeled the information sharing process. The
                        results of a DHS HSIN User Working Group documented this need,
                        specifically requesting guidance on the types of information to be shared, the
                        processes for sharing, how the information shared is used, and what users can
                        expect from DHS in return. In the absence of adequate DHS guidance, states
                        such as Virginia, Maryland, and Texas have begun to define information
                        sharing processes and procedures on their own, potentially resulting in
                        duplication of effort and lack of standardization.

                        DHS officials stated that defining the information sharing process is one of
                        their foremost challenges and that two efforts are under the way to address
                        this issue. First, the DHS Office of Intelligence and Analysis is working to
                        map out how federal, state, and local entities share information in both the
                        classified and unclassified domains. Second, the DHS Information Sharing
                        and Collaboration Office plans to work with the HSOC director, and in
                        coordination with federal, state, and local governments and the private sector,
                        to develop guidance for sharing information via HSIN. Such guidance will
                        include document labeling and handling policies, information sharing
                        regulations, and database standards for HSIN, as well as other systems to

9
 Revision of OMB Circular No. A-130, Transmittal 4, Management of Federal Information Resources, November 28,
2000.

                         Homeland Security Information Network Could                                     Page 16
                         Support Information Sharing More Effectively
                           which HSIN may be connected. As of March 2006, DHS was still working to
                           develop these materials.

                           One model that DHS might reference in defining its own information sharing
                           process is the intelligence model included in the National Criminal
                           Intelligence Sharing Plan. This plan was developed by the Global Justice
                           Information Sharing Initiative Intelligence Working Group in coordination
                           with the Department of Justice and in response to information sharing needs
                           expressed at the International Association Chiefs of Police Criminal
                           Intelligence Sharing Summit. 10 Other intelligence models share the same
                           basic principles and phases. As such, although this model focuses on sharing
                           law enforcement intelligence, we believe that it can be adapted and applied to
                           the broader HSIN user communities. The circle in Figure 4 depicts the law
                           enforcement intelligence sharing process; we have indicated in the boxes the
                           areas DHS needs to address to be in line with this model.


                             No Performance                                                                 No Stakeholder
                               Measures to                                                                Analysis of Relevant
                             Review Value of                            Planning and                       HSIN Customers
                               Information                                Direction
                                                                 n
                                                              a ti o
                                                           alu
                                                           ev




                                Did Not                                                                            Did Not
                                                        Re




                                Clearly                                                      Collection            Clearly
                              Define What        Dissemination
                                                                       Intelligence
                                                                                                                 Define What
                              Happens to                                 Sharing                                 Information
                               Submitted                                                                          to Submit
                              Information
                                                                         Process
                                                                                       Processing/
                                                                                       Collation
                                                           Analysis

                                   Did Not Clearly                                                           Did Not Clearly
                                    Define What                                                               Define What
                                   Analysis DHS                                                            Technology to Use
                                    Will Provide                                                          to Share Information

                           Figure 4: The Intelligence Sharing Model as Applied to HSIN




10
  The National Criminal Intelligence Sharing Plan provides law enforcement agencies with the ability to gather, analyze,
protect, and share credible and timely information and intelligence to identify, investigate, prevent, deter, and defeat
criminal and terrorist activities, both domestically and internationally, as well as to protect the security of our homeland
and preserve the rights and freedoms of all Americans.

                            Homeland Security Information Network Could                                                 Page 17
                            Support Information Sharing More Effectively
                         User Training and Support

                         According to the Clinger-Cohen Act, agencies are responsible for ensuring
                         that IT users receive the training and guidance that they need to do their
                         jobs. 11 However, DHS did not provide adequate formal training to support
                         users in the initial system release. A former HSIN program manager stated
                         that providing sufficient user training was perhaps the biggest challenge that
                         DHS faced. Further, a DHS official stated that the department implemented
                         HSIN without providing sufficient business context as to why and how the
                         system should be used to support operations in specific communities, such as
                         emergency management, law enforcement, or state homeland security offices.

                         In the winter of 2004, DHS followed up with additional training in efforts to
                         provide better business context for system use. However, this did not solve
                         the problem because DHS switched from the Groove software to portal
                         technology right after providing the training. To further complicate matters,
                         DHS did not conduct extensive training on HSIN and its new portal
                         technology, but instead provided instruction on an ad hoc basis. Generally,
                         users in the field expressed the need for more HSIN training, especially how
                         to perform intelligence work on the portal. A number of users were not aware
                         of critical HSIN features, such as “request for information” tabs, document
                         libraries, and chat capability.

                         In 2005, DHS made several efforts to improve its HSIN training. For
                         example, DHS provided computer-based training, which was accessible
                         directly through the HSIN portals, on how to use the system. Additionally, in
                         the ongoing state and local HSIN rollout, DHS is offering new classroom
                         training on a state-by-state basis. Users in one state provided excellent
                         feedback to us on this training.

                         In addition to the lack of training, reference materials to support HSIN users
                         need to be improved. DHS released user manuals for several HSIN portals in
                         2005. The manuals are clear with respect to system capabilities, however they
                         do not provide users with scenario-based instruction on how to apply HSIN to
                         the business process. For example, one user manual provides instructions on
                         how to add a new record to the HSIN database, but does not indicate what
                         types of incidents to report and in what format. A quick reference guide,
                         which DHS created to assist users of one state portal, similarly lacks guidance
                         on HSIN use in the business context.



11
  Clinger-Cohen Act (formerly the Information Technology Reform Act of 1996), Public Law 104-106, Division E,
Section 5125, February 10, 1996.

                         Homeland Security Information Network Could                                      Page 18
                         Support Information Sharing More Effectively
                           DHS, in an effort to describe what information to report, coordinated with the
                           Federal Bureau of Investigation to develop a Terrorism Threat Reporting
                           Guide for use by its state and local partners. However, users found the guide
                           too detailed and difficult to reference in conducting their day-to-day
                           operations. The guide is merely a list of types of suspicious activities and is
                           not tailored to meet the needs of specific user communities. Further, even
                           though the guide is posted on HSIN, it does not mention the use of HSIN as a
                           reporting mechanism, but instead directs officials to report suspicious
                           activities via telephone or email. The general feedback that DHS has received
                           from the law enforcement community regarding the guide is that it needs to be
                           simplified to a laminated card that a police officer can easily reference on the
                           street. However, DHS officials have countered that funding and time
                           limitations prevent them from creating such additional products. In the
                           absence of DHS support, one state has produced a laminated reference card on
                           its own.

Need For Performance Metrics
                           According to the Government Performance and Results Act of 1993 agencies
                           must establish performance goals as well as metrics that assess relevant
                           outputs, service levels, and outcomes of each program activity. 12 Given
                           HSIN’s portal technology, DHS should be able to track performance by using
                           a number of measures such as system logons and postings. Such measures
                           would provide a good indication of both system use and the volume of
                           information shared. However, DHS has not developed these performance
                           measures. Instead, DHS assesses HSIN performance based on the number of
                           active user accounts, which is not a good indicator of the quantity of the
                           information shared using the system. Also, DHS measures performance by
                           talking to stakeholders informally to gather anecdotal information on HSIN
                           use. Such anecdotes may be helpful if systematically gathered and assessed to
                           identify system capabilities that could be enhanced.

                           DHS officials agree that performance metrics are necessary and have begun to
                           pursue ways to address this need. Specifically, in September 2005, a DHS
                           Information Sharing and Collaboration office laid out a three-phased approach
                           to creating performance metrics for DHS information sharing. The office has
                           completed the assessment and planning phase and has begun phase two,
                           metric design and pilot. Further, in conjunction with multiple stakeholders,
                           the HSOC also is working to determine what needs to be measured as well as
                           to establish a performance baseline for HSIN.



12
     The Government Performance and Results Act of 1993, Public Law 103-62.

                            Homeland Security Information Network Could                             Page 19
                            Support Information Sharing More Effectively
HSIN Needs To Support Information Sharing More Effectively
                Largely due to the planning and implementation issues previously discussed,
                users are not fully committed to the HSIN approach. Although users we
                interviewed generally like the technology, they are somewhat confused about
                the HSIN’s role and do not trust the system’s ability to safeguard sensitive
                information. In addition, the system does not provide them with useful
                situational awareness and classified information. As a result, users do not
                regularly use the system but instead resort to pre-existing methods for sharing
                counter-terrorism information.

HSIN Does Not Fully Meet User Needs
                State and local users we interviewed provided mixed feedback regarding
                HSIN. Although they generally like the web portal technology, they have
                several suggestions on how to improve the system’s technical capabilities to
                meet their needs. Users also do not fully understand HSIN’s role and how the
                information shared on the system is used. Some users in the law enforcement
                community, in particular, told us that they do not trust the system to share
                sensitive intelligence information. Further, situational awareness information
                that could help states and cities determine how to respond to threats when
                major incidents occur is not readily available. The HSIN-Secret portal, meant
                to function as a temporary channel to deliver classified information, does not
                provide valuable content.

                Mixed Feedback on the HSIN Web Portal Technology

                State and local users we interviewed generally like the HSIN technology.
                They stated that the web page design is user friendly and find it easy to search
                the document library for topics of interest. They appreciate the web
                technology because, unlike some other systems, it does not require
                cumbersome software installations at a desktop. Similarly, the portal
                technology helps ensure that all users always have access to the latest version
                of the HSIN software. Further, because logging onto HSIN only requires an
                internet connection, users can access the system from any location and from
                any computer at any time.

                HSIN’s flexibility and easy set up has made it particularly useful for
                communications and collaboration during special events. For example, in
                2004, DHS created portals and adapted the system to support the Group of
                Eight Summit in Atlanta, the Academy Awards ceremony in Los Angeles, and




                Homeland Security Information Network Could                               Page 20
                Support Information Sharing More Effectively
                          the Republican National Convention in New York City. 13 More recently,
                          HSIN proved to be highly useful in supporting emergency response to the
                          Hurricane Katrina disaster in the Gulf States in 2005. When other means of
                          communications became unavailable, first responders were able to track over
                          22,000 emergency 911 calls via the HSIN-Katrina portal. DHS set up this
                          portal within hours of the hurricane, sustaining critical communications and
                          ultimately helping locate victims and saving lives.

                          State and local users nonetheless had several suggestions on how to improve
                          HSIN. For example, several users said that the search functionality was not
                          reliable or effective in locating documents or information they needed to
                          perform their work. Some users could not access “Jabber” for online
                          collaborations. 14 Others were especially frustrated by the lack of a directory
                          of HSIN participants when such functionality had existed on the predecessor
                          system. Without an HSIN participant list, users could not determine who had
                          access to the system or easily identify officials with whom they needed to
                          collaborate in other government agencies. Further, users wanted the HSIN
                          logon function to be improved so that they would not have to sign on to each
                          portal separately.

                          DHS is taking steps to address a number of these HSIN user issues. For
                          example, the department is making efforts to better communicate the
                          availability of the online “Jabber” collaboration tool. DHS plans to include a
                          global directory in the next version of HSIN. DHS also has begun work to
                          provide a single sign-on capability for HSIN.

                          HSIN’s Role Needs Clarification

                          In addition to requesting technical improvements, users are confused about
                          HSIN’s role with respect to information sharing. For example, they do not
                          understand the purpose of HSIN in relation to other systems with similar
                          functionality and are not clear about which system to use to support their
                          work. We previously identified some of these systems, such as LEO,
                          RISSNET, and the Federal Protective Services Secure Portal System.
                          Multiple HSIN rollouts without adequate communications served to increase
                          user confusion. For example, because DHS did not adequately announce the
                          switch from the Groove technology to the portal system, some users were
                          unaware of system changes and added features. Some users, for instance, told
                          us that they did not know of the existence of the Jabber collaboration tool,
                          made available when the HSIN portals were released. Although DHS officials

13
   The annual Group of Eight Summit brings together leaders of the world’s richest nations: Canada, France, Germany,
Italy, Japan, Russia, the United Kingdom, and the United States.
14
   Jabber is a scalable, secure, real-time instant messaging application.

                          Homeland Security Information Network Could                                         Page 21
                          Support Information Sharing More Effectively
stated that they often post information on the portals to communicate system
changes, users who do not regularly access HSIN do not receive such
notifications.

In the absence of clear DHS direction, users are unsure of how to use HSIN.
Several state officials said that they did not get clear answers when they asked
what type of information to share on the system. Other officials expressed
uncertainty about whether DHS wanted raw data or completed analyses posted
to the portals. Local officials stated that DHS should provide standard criteria
on how each stakeholder should report information. For example, users stated
that a template, providing the format and the basic information that they need
to share, would be useful.

Users told us that they became frustrated when they received feedback from
DHS that the information they supplied was not useful. They said that HSIN
program management had not provided clear guidance on what constituted a
link to terrorism. In the absence of clear guidance, users therefore posted
information on crimes that they believed were precursors to terrorist activities.
However, DHS periodically responded by removing the information from the
portals or adding “no terrorism nexus” to the postings, without providing clear
justification for doing so. DHS has since moved to an “all crimes approach”
to information sharing, meaning that any information posted by state and local
officials on HSIN will be accepted. However, users said that there also has
been no documented guidance to advise users of this policy change so that
they will know what information can be shared.

Finally, state and local officials told us they do not understand what DHS does
with the information that they supply and therefore lack incentive to provide
information via HSIN. One user characterized DHS as a “black hole” into
which they funnel information, but from which they receive no response.
Users would like to receive DHS feedback and analysis on information that
they provide, as well as notice about postings concerning potential threats that
have been resolved.

Lack of Trust

Some parts of the law enforcement community do not trust HSIN to share
their sensitive case information. Although a primary function of HSIN is to
provide law enforcement with an information-sharing tool, as DHS expanded
the system to other communities, including state homeland security advisors,
law enforcement users became concerned that their sensitive information
would not be adequately safeguarded. Specifically, law enforcement officials
we interviewed were worried that posting their information to a wide audience
could result in cases being leaked or compromised, intelligence sources

Homeland Security Information Network Could                               Page 22
Support Information Sharing More Effectively
divulged, or personal private data shared with users who do not have a need to
know.

This privacy issue was a major point of contention. Law enforcement
questioned whether HSIN is compliant with Title 28, Code of Federal
Regulations, Part 23, which provides guidelines for law enforcement agencies
that operate federally funded, multi-jurisdictional criminal intelligence
systems. The regulation mandates that law enforcement systems safeguard
the privacy and constitutional rights of individuals. The regulation defines the
types of criminal information that can be stored on law enforcement systems,
and how long the information can be maintained. Law enforcement officials
were not confident that these requirements were met, given the manner in
which HSIN was managed.

This erosion in trust as the system was expanded led to conflicts between the
JRIES executive board, comprised primarily of law enforcement officials, and
HSIN program management. In May 2005, concerned with the direction that
DHS had taken with JRIES/HSIN without soliciting its input, the JRIES
executive board voted to discontinue its relationship with the HSOC. The
consensus of the board was that the HSOC had "hi-jacked" the system,
federalizing what it believed to be a successful, cooperative federal, state, and
local project. After departing, the JRIES executive board continued to
promote its initial information-sharing concept as JRIES II, a separate system
apart from HSIN. The new JRIES II was designed to restore the capability for
secure intelligence sharing within the trusted law enforcement community.
The JRIES executive board began by marketing JRIES II to ten key states and
major municipalities.

HSIN program management has taken steps to resolve this trust issue.
Specifically, the program management obtained a Department of Justice
ruling that HSIN is compliant with Title 28, Code of Federal Regulations, Part
23. Also, HSIN program management obtained Department of Justice
concurrence that state homeland security advisors can access law enforcement
sensitive information since they serve in homeland security roles that have
law enforcement responsibilities. Nevertheless, law enforcement officials in
the field told us that they were reluctant to allow HSIN users from outside
their community to see their sensitive case information. Law enforcement
officials said that information sharing among law enforcement personnel is
based on trust. Once that trust is lost, it takes time to rebuild.

HSIN is Not Providing the Information Needed

State and local users said that HSIN does not provide them with the timely
and relevant information that they need to support their counter-terrorism

Homeland Security Information Network Could                               Page 23
Support Information Sharing More Effectively
missions. They stated that HSIN does not provide them the situational
awareness they need to manage or respond to emergency operations or
terrorist-related events. For example, users stated that during the 2005
London bombings, they needed timely information such as whether the
attacks were suicide attacks so that state and local transportation security
would know what to look for in their own jurisdictions. However, the
information provided on HSIN was no more useful or timely than information
available via public news sources. Users were able to get better or quicker
information by calling personal contacts at law enforcement agencies with
connections to the London police, than by using the system. State and local
users understand that at times, DHS may not have additional information to
post apart from what is already available to the public. However, even though
DHS might not have additional information, users said they would prefer that
DHS provide periodic HSIN updates to this effect, rather than provide no
information at all.

The lack of good situational awareness can lead states and cities to either
over-react to reported threats–and potentially waste resources–or
under-react and leave themselves vulnerable. For example, the United States
Conference of Mayors published the results of a 145-city survey and stated
that deploying resources to respond to terrorist alerts can increase costs
nation-wide by about $70 million per week. Such expenditures are wasted
when the reported threats turn out to be invalid. During the blackouts in the
Northeastern United States, cities and states in other parts of the country
learned right away through JRIES that the power failures were not terrorist-
related. Therefore, these other cities and states did not have to unnecessarily
expend additional funds to increase security. Conversely, where officials
under-react, their localities may be unprepared and potentially vulnerable to
incidents that actually do occur.

HSIN-Secret Does Not Contain Useful Products

State and local officials said that the HSIN-Secret portal does not provide
valuable content. HSIN-Secret is meant to function as a temporary channel to
deliver secret-level, classified information to state and local officials until the
Homeland Secure Data Network is completed. However, users said that very
few documents are available on the classified web site. Figure 5 indicates the
number of documents posted to the HSIN-Secret portal since it was created.
In general, there have been an average of about 27 logons per month, from a
total of 366 account holders across all 50 states.




Homeland Security Information Network Could                                  Page 24
Support Information Sharing More Effectively
                                                                  Documents Posted to HSIN-Secret

                                                             18




                                         Docum ents posted
                                                             16
                                                             14
                                                             12
                                                             10
                                                              8
                                                              6
                                                              4
                                                              2
                                                              0




                                                             De 0 5
                                                             Fe -0 5




                                                              Ju 5




                                                                     06
                                                             M 05
                                                             A p 05




                                                             Au 5
                                                             Ja 0 4




                                                             M 5




                                                             S e - 05
                                                             O 05



                                                             Ja 0 5
                                                             J u -05




                                                             No 0 5
                                                                  l-0
                                                                 r- 0


                                                                     0




                                                                 v-
                                                                 n-




                                                                 n-
                                                                 b-
                                                                   -
                                                                 c-




                                                                 c-
                                                                 p-
                                                                  -
                                                                 n

                                                                ar




                                                                 g
                                                               ay




                                                               ct
                                                    De

                                                                                 Months



                          Figure 5: Documents Posted to HSIN-Secret
                          In addition to the lack of useful content, HSIN-Secret also faces several
                          technical challenges. HSIN-Secret connectivity was established in state
                          emergency operation centers because they had the infrastructure to support it;
                          however, state and local officials believed that state fusion centers are the
                          more appropriate locations for HSIN-Secret connection because the state
                          individuals that primarily require access to the system often are located at the
                          fusion centers rather than the emergency operations centers. 15 Further, HSIN-
                          Secret at several state emergency operation centers does not function at all,
                          due to outdated encryption keys that do not allow users to access the system.

State and Local Officials Do Not Rely on HSIN
                          As a result of their frustrations with HSIN, state and local officials do not
                          regularly use the system and instead resort to prior systems and methods to
                          share counter-terrorism information. Data provided by HSIN program
                          management demonstrates that user logons and postings are limited, and that
                          users do not rely upon the system as the nation’s primary information sharing
                          and collaboration network as DHS intended.

                          Users Resort to Prior Ways of Sharing

                          Because HSIN does not fully meet their needs, state and local officials said
                          that they resort to systems and methods they previously used to share
                          information. For example, law enforcement users said that they often use
                          other existing systems, such as LEO, RISSNET, and the Federal Protective
15
  Fusion centers are two or more agencies collaborating to provide resources, expertise, and/or information to maximize
the ability to detect, prevent, apprehend, and respond to criminal and terrorist activity.

                           Homeland Security Information Network Could                                          Page 25
                           Support Information Sharing More Effectively
Services-Secure Portal System. As previously discussed, some members of
the JRIES executive board use JRIES II as an alternative to the HSIN portal.
Private systems, such as the “NC4” managed by the National Center for Crisis
and Continuity Coordination, provide real-time information to state and local
subscribers. The system provides warnings, alerts, and situational awareness
on a fee for service basis. In some instances, agencies such as the U.S. Secret
Service are creating their own portals for information sharing among a limited
user group. Such practices perpetuate the ad hoc, stove-piped information-
sharing environment that HSIN was intended to correct.

State and local law enforcement officials said that they continue to depend
upon personal contacts and telephone calls to related organizations to
exchange intelligence on potential threats, too. These users recognize,
however, that phone calls are not the most efficient means of obtaining
situational awareness information and coordinating incident response
activities. For example, because they did not receive useful or timely updates
through HSIN, law enforcement officials relied heavily upon telephone calls
to share information related to the reports in October 2005 that terrorists were
threatening to detonate a truck bomb inside the Baltimore tunnel. One official
received 96 telephone inquiries in a single day about the incident. Another
official said that during the Hurricane Katrina response in 2005, first
responder organizations were inundated with phone calls, many of which were
not successful due to the heavy call volume.

User Communities Make Limited Use of HSIN

In concert with a continued reliance on alternative means to share information,
state and local user communities are making limited use of HSIN. Although
law enforcement is a principal HSIN customer, officials at state fusion centers
and police counter-terrorism units said that they do not use the system
regularly to share intelligence information. For example, officials at nine of
the 11 state and city emergency operation centers that we visited stated that
they only log on to the system occasionally. Further, some emergency
operation centers have a very limited number of user accounts, while others
are not connected to HSIN at all.

        Limited Logons

Data provided by HSIN program management indicates that the number of
daily logons to HSIN is limited. Although the total number of HSIN user
accounts has increased since the system was deployed, use of three of the
primary HSIN portals–the law enforcement, emergency management, and
counter-terrorism portals–has remained consistently low. Figure 6 shows the
average percentage of account holders who logged onto HSIN daily in

Homeland Security Information Network Could                              Page 26
Support Information Sharing More Effectively
                          December 2005. That month was the latest time period for which HSIN
                          program management was able to provide usage data.


                                                           HSIN Logons
                                                                 December 2005


                                                             Law              Emergency              Counter
                                                          Enforcement         Management            Terrorism




                           % of Users
                           Logging On Daily                6%                    2%                   2%


                           Total # of Users                   3011                 4233                 9477

                              = Users Participating
                              = Users Not Participating


                          Figure 6: HSIN Logons


                          Although the total number of accounts for the law enforcement portal has
                          grown over the past year, only a small percentage of account holders log onto
                          the system daily. As Figure 6 indicates, of the approximately 3,000 account
                          holders on the law enforcement portal, an average of only six percent logged
                          on daily in December 2005. 16 The peak average daily logons for any given
                          month in the year 2005 was 12 percent.

                          Further, of the approximately 4,000 accounts on the emergency portal, an
                          average of only two percent logged on daily in December 2005. Average
                          daily usage reached its highest monthly level, 11 percent, in September 2005,
                          due to inquiries during the Hurricane Katrina response. Usage of the counter-
                          terrorism portal was similar: of the approximately 9,500 account holders on
                          this portal, an average of only about two percent logged on daily. Again,
                          usage peaked in September 2005 due to Hurricane Katrina; the highest level
                          of average daily logons for that time was three percent.



16
  Percentages were obtained by dividing the total number of daily system logons by the total number of account holders.
This percentage represents the maximum average number of users who logged on per day.

                           Homeland Security Information Network Could                                          Page 27
                           Support Information Sharing More Effectively
          Limited Postings

We examined the average number times that users posted documents and
information to HSIN each month as a means of measuring use of the system.
According to data we received from HSIN program management officials, the
number of postings to the law enforcement, emergency management, and
counter-terrorism portals has remained fairly constant for the past six months.
Figure 7 shows the average monthly percentage of users posting information
to three major HSIN portals in December 2005.


                                HSIN Postings
                                      December 2005



                                   Law            Emergency       Counter
                                Enforcement       Management     Terrorism




% of Users
Posting Monthly                  6%                   1%          1%


 Total # of Users                  3011                4233         9477

    = Users Participating
    = Users Not Participating


Figure 7: HSIN Postings


As indicated, the average percentages of daily postings for the three
communities in the month of December were comparable to the logon levels
previously discussed. HSIN program management officials have expressed
dissatisfaction with the levels of information sharing on the system over the
past year. However, they have not established performance goals to indicate
what they believe would be an acceptable number of postings each month.

In another effort to determine the extent to which users are utilizing the
system to share information, we compared the numbers of users and their
percent of total postings on three major HSIN portals to the number of users
and their percent of postings on the legacy JRIES system. (See Figure 8.) In
January 2006, the number of total postings by users of the three HSIN portals

Homeland Security Information Network Could                              Page 28
Support Information Sharing More Effectively
and the legacy JRIES combined was 851. For that month, the percentage of
total HSIN postings for the 157 users of the legacy JRIES system was over 50
percent–greater than the percentage of total postings by approximately 18,000
users on the three major HSIN portals combined. In other words, a relatively
small number of users on the legacy JRIES system accounted for the majority
of the total HSIN postings for the given month.

                 Comparison of Total Postings by
               Selected User Groups in January 2006



                                                           LE
                                                          28%
                 Legacy
    157          JRIES                                                  18,000
   Users          54%                                                   Users
                                                          CT
                                                         13%
                                               EM
                                               6%



                                  Total Postings = 851

Figure 8: Comparison of Total Postings by Selected User Groups in January 2006


HSIN program management officials plan to migrate users from the legacy
JRIES system to the HSIN portals, which are more flexible because they can
be accessed anywhere via the internet and also can accommodate a greater
number of users across various community groups. In line with this plan,
program managers report that since the HSIN portals were created in 2005,
the legacy JRIES system has had a declining number of account holders and
decreased use. Despite this trend, posting activity on the legacy JRIES system
remains strong when compared to postings on the three main HSIN portals.
Continued postings on the legacy JRIES system results in additional effort
because, to ensure that needed information is accessible to the broader user
community, DHS must copy the legacy JRIES data onto the HSIN portals.


Homeland Security Information Network Could                                      Page 29
Support Information Sharing More Effectively
Other Major Challenges
              DHS faces multiple challenges in successfully implementing HSIN to support
              homeland security information sharing. In addition to the technical system
              issues discussed above, promoting the use of HSIN for information sharing
              across federal, state, and local governments, including law enforcement,
              intelligence, and emergency management communities, is a complex, multi-
              faceted undertaking that has proven problematic. Figure 9 groups the various
              challenges related to HSIN implementation into four broad categories:
              resources, legislation, privacy, and culture.




                                             Funds            New
                                                             vs. old
                                                              laws      Federal
                                   People                               to state
                                                                        jurisdiction
                                                HSIN
                                              Challenges
                                  Reluctance
                                                                    Civil
                                  to sharing
                                                                  liberties
                                             Traditional
                                              sharing
                                              patterns



              Figure 9: HSIN Challenges
              Acknowledging and addressing these challenges will not only improve the
              quality and quantity of information shared using HSIN, but also help efforts to
              deter terrorism and respond to incidents overall. However, because these
              challenges are often beyond the control of HSIN program management to
              resolve, DHS cannot address them alone. Devising solutions to successfully
              overcome these concerns will require coordination and collaboration across
              the range of government, community, and organizational stakeholder groups.




              Homeland Security Information Network Could                              Page 30
              Support Information Sharing More Effectively
Resources
              Resource limitations have hindered the ability of organizations at all levels of
              government to effectively share information and will undoubtedly continue to
              pose challenges in the future. DHS officials cited a lack of sufficient
              personnel as a reason for being unable to provide vital support to HSIN users,
              especially during its initial release. For example, since implementing HSIN,
              DHS has participated in information sharing conferences, suspicious activities
              forums, and large advisory meetings along with the range of system
              stakeholders. However, because DHS did not have adequate personnel to
              develop professional relationships with individuals in the various user
              communities, department officials stated that their initial contacts were limited
              and short-lived. Establishing longstanding and dependable relationships with
              users is an important factor in gaining and sustaining their support and trust.

              State officials expressed concern that they do not have enough personnel to
              monitor all of the federal systems available to them. For example, a state
              emergency management official said that, at one point, a single employee had
              to monitor 19 different systems. Intelligence analysts in another state said
              they could not concurrently monitor both the JRIES and HSIN portals so their
              supervisor told them just to monitor the JRIES portal. State officials are
              concerned that DHS is planning to monitor their usage of HSIN to help
              determine future allocations of grant funds to states.

              State officials added that a lack of funding limits their ability to sustain
              operations at state-run facilities, such as intelligence fusion and analysis
              centers. To illustrate, some state officials said that states are dependent upon
              federal funds to enable them to fully operate such intelligence centers and
              actively participate in information sharing with federal agencies. In addition,
              states that do not have sufficient resources to establish their own web presence
              for sharing information welcome the HSIN state portal pilot program, under
              which the HSOC funds and manages the system and its operations. State
              officials are concerned, however, that the Homeland Secure Data Network,
              the eventual replacement for the HSIN-Secret portal, may not be provided to
              states with federal funding. Some states may not be able to afford
              participating on the portal at their own expense.

Legislation
              Legislative requirements also have created challenges to effective information
              sharing. Federal legislation over the past several years has established new
              goals and authorities for information sharing beyond those initially assigned to
              DHS. The Homeland Security Act of 2002 gave DHS the responsibility to


              Homeland Security Information Network Could                               Page 31
              Support Information Sharing More Effectively
          coordinate and share information related to threats of domestic terrorism with
          other federal agencies, state and local governments and private sector entities.
          In 2004, however, the Intelligence Reform and Terrorism Prevention Act
          established the Office of the Director of National Intelligence external to
          DHS. The act mandated the establishment of an information-sharing
          environment under the direction of a newly designated program manager to
          facilitate sharing of terrorism-related data nation-wide. Establishing this new
          information-sharing environment will involve developing policies,
          procedures, and technologies to link the resources of federal, state, local, and
          private sector entities to facilitate communication and collaboration. The new
          program manager plans to build on the collective capabilities of HSIN and
          other federal systems to establish the mandated environment. However, at the
          time of this audit, it was not clear what HSIN’s role will be in this context.
          Identifying that role, and ensuring the success of the new information-sharing
          environment, will require close coordination and collaboration by all of the
          federal stakeholders involved.

          State laws, which differ from state to state, may conflict with federal
          collaboration initiatives and, in some cases, prevent effective information
          sharing. For example, DHS has little authority to require that state and local
          governments or other user communities use HSIN for information sharing. As
          such, department officials often find themselves in a consultation mode with
          the states. Alternatively, state laws, which may be very restrictive, can limit
          the ability of state and local user communities to share information through
          HSIN. Law enforcement communities, for example, are governed by laws
          that prohibit sharing certain types of sensitive information.

          In the past several months, DHS has taken steps to collaborate with the
          individual states to better understand their respective legislative environments.
          DHS began reaching out to several states as part of the HSIN state portal pilot
          program, which should give the department the opportunity to assess each
          state’s information-sharing laws. HSIN program managers also are working
          with the states to develop memorandums of agreement that will define how
          the states will cooperate with DHS to effectively share information. These
          efforts have been well received by state representatives and should increase
          the likelihood of successful information exchange between the department and
          its state and local counterparts.

Privacy
          Privacy considerations cannot be ignored in the context of information
          sharing. Specifically, maintaining the appropriate balance between the need
          to share information and the need to respect the privacy and other legal rights
          of U.S. citizens can be a difficult and time-consuming effort. Due to privacy

          Homeland Security Information Network Could                               Page 32
          Support Information Sharing More Effectively
          concerns, civil liberties organizations have challenged information-sharing
          initiatives in the past and could pose similar challenges for the HSIN program.

          In 2003, the American Civil Liberties Union raised concerns about the
          Multistate Anti-Terrorism Information Exchange system, an effort to link
          government and commercial databases to enable federal and state law
          enforcement to analyze information as a means of identifying potential
          patterns of suspicious activity by individuals. As a result of the privacy
          concerns raised, as well as the costs involved, many state law enforcement
          communities stopped using the Multistate Anti-Terrorism Information
          Exchange system.

          By not appropriately considering privacy concerns, HSIN could face a similar
          outcome before realizing its full potential. As required by the Homeland
          Security Act, and in efforts to assuage civil liberty concerns, DHS performed a
          privacy impact assessment of HSIN portals before deploying them. As a
          result of the privacy impact assessment, DHS had to shut down the HSIN
          document library, which contained reports from nation-wide sources,
          significantly hampering system usefulness. In addition, DHS is currently
          creating another database that will need a privacy impact assessment prior to
          implementation. This database is to provide intelligence analysis capability
          similar to that of the abandoned Multistate Anti-Terrorism Information
          Exchange system. Besides the privacy impact assessment, clear standards and
          effective controls will be necessary to ensure and to demonstrate to concerned
          consumer groups, that the information gathered through HSIN does not
          violate the rights of American citizens.

Culture
          A culture that is not receptive to knowledge sharing is one of the foremost
          hurdles to widespread adoption of collaboration software. Such cultural
          issues have limited HSIN’s use and, therefore, its effectiveness.

          HSIN users comprise diverse communities, including state and local
          government officials, emergency managers, law enforcers, intelligence
          analysts, and other emergency responders. All have different missions, needs,
          processes, and cultures. Because of these differences, the various user groups
          often are reluctant to share information beyond the bounds of their respective
          communities. Traditionally, for example, law enforcement has operated in a
          culture where protecting information is of paramount concern. Shifting from
          this “need to know” culture to a “need to share” culture has proven difficult.
          As discussed previously, a lack of trust in the law enforcement community has
          led to low use of HSIN to share sensitive information. DHS officials
          anticipated when they first released HSIN that culture might become an issue,

          Homeland Security Information Network Could                              Page 33
          Support Information Sharing More Effectively
            but they did not have the time or resources to build the trusted relationships
            necessary to overcome this issue.

            Despite the availability of HSIN, some state and local users continue to share
            information with agencies other than DHS with whom they developed trusted
            relationships in the past. For example, local law enforcement communities
            have developed close associations with the Federal Bureau of Investigation’s
            network of Joint Terrorism Task Forces, which investigate and respond to
            reports of terrorist-related activities and incidents in their areas. Law
            enforcement officials told us that, although they have access to HSIN, they
            typically share information on suspicious activities with their Joint Terrorism
            Task Forces contacts and expect them to pass the information to DHS. These
            officials explained they prefer to notify the Joint Terrorism Task Force first
            instead of DHS, because they know that the task forces will send personnel to
            the field to investigate. Conversely, it is unclear to these officials what DHS
            does with information on suspicious activities.

            Identifying and understanding such user community goals and requirements
            are a first step to understanding cultural differences and building collaborative
            relationships. Frequent communication, guidance on how shared information
            will be used and protected, effective feedback, and mechanisms for resolving
            issues in a timely manner can also serve to overcome differences and instill
            trust and understanding.


Recommendations
            To ensure effectiveness of the HSIN system and information sharing
            approach, we recommend that the Director, Office of Operations
            Coordination, Department of Homeland Security:

            1. Clarify and communicate HSIN’s mission and vision to users, its relation
               to other systems, and its integration with related federal systems.
            2. Define the intelligence data flow model for HSIN and provide clear
               guidance to system users on what information is needed, what DHS does
               with the information, and what information DHS will provide.
            3. Provide detailed, stakeholder-specific standard operating procedures, user
               manuals, and training based on the business processes needed to support
               homeland security information sharing.
            4. Ensure crosscutting representation and participation among the various
               stakeholder communities in determining business and system
               requirements, and encourage community of interest advisory board and
               working group participation.


             Homeland Security Information Network Could                               Page 34
             Support Information Sharing More Effectively
             5. Identify baseline and performance metrics for HSIN, and begin to measure
                effectiveness of information sharing using the performance data compiled.


Management Comments and OIG Evaluation

             We obtained written comments on a draft of this report from the Acting
             Director, Office of Operations Coordination. We have included a copy of the
             comments in their entirety at Appendix B.

             In the comments, the Acting Director concurred with our recommendations in
             their entirety. The Acting Director further said that the recommendations are
             solid, and when implemented, will improve the effectiveness of the HSIN
             system and information sharing. The Acting Director added that there are two
             primary reasons why HSIN is not more effectively supporting information
             sharing. First, the HSIN program lacks many aspects of a typical federal
             program due to the expedited effort to roll out the program. Second,
             according to the Acting Director, the Secretary has directed that a
             coordinating body within DHS, consisting of the Under Secretary for Policy,
             the Assistant Secretary for Intelligence and Analysis, the Director of
             Operations, and the Chief Information Officer, coordinate an accelerated
             information sharing enterprise. This effort hindered HSIN implementation.

             In response to recommendation 1, the Acting Director acknowledged the need
             to clarify and communicate HSIN’s mission and vision to users, its relations
             to other systems, and its integration with related federal systems. Specifically,
             the Acting Director said that the Office of Operations Coordination has
             engaged external partners to improve coordination and clarify the purpose of
             existing information systems. Additionally, the Acting Director indicated that
             there is a need for customer satisfaction performance metrics to determine
             progress toward meeting communication objectives successfully.

             In response to recommendation 2, the Acting Director of Operations indicated
             that the Assistant Secretary for Intelligence and Analysis is working to define
             an intelligence data flow model for HSIN and provide clear guidance to
             system users on what information is needed, what DHS does with the
             information, and what information DHS will provide. The Assistance
             Secretary for Intelligence and Analysis will define and publish the intelligence
             data flow for the Homeland Security community. Further, the Office of
             Operations Coordination will partner with Intelligence and Analysis to ensure
             that the entire user community understands the data flow model and uses it
             effectively to both supply and consume information that fuels this information
             sharing system.


             Homeland Security Information Network Could                               Page 35
             Support Information Sharing More Effectively
To address recommendation 3, the Acting Director is exploring plans to
reorganize the program management function of HSIN into a program office
dedicated to supporting all aspects of the HSIN program including providing
detailed, stakeholder-specific standard operating procedures, user manuals,
and training based on the business processes needed to support homeland
security information sharing. Further, the HSIN Program Management Office
will have a dedicated program manager to engage all HSIN stakeholder
groups to assess deficiencies in training materials and standard operating
procedures to optimize operational effectiveness.

In response to recommendation 4 regarding ensuring crosscutting
representation and participation among the various stakeholder communities
to determine business and system requirements, the Acting Director
established a governance program for HSIN, called the HSIN Advisory
Council. This Council provides a forum for user communities to provide
feedback on ways to improve information sharing among all communities of
interest.

Finally, to address recommendation 5, the Acting Director said that a Program
Management Office would be established to partner with HSIN user
communities to identify and implement robust performance metrics.




Homeland Security Information Network Could                            Page 36
Support Information Sharing More Effectively
Appendix A
Scope and Methodology




As background for this audit, we researched and reviewed IT laws,
regulations, and other federal guidance applicable to DHS’ responsibility for
coordinating terrorist-related information sharing with state and local
governments. We reviewed prior GAO and DHS OIG reports related to
homeland security information sharing. We searched the internet to obtain
testimony, published reports, documents, and news articles regarding DHS’
information sharing approach and the use of the JRIES and HSIN systems.
Additionally, we met with organizations that had researched terrorist-related
information sharing, including GAO, the Congressional Research Service, and
the National Governors Association. Using this information, we designed a
data collection approach, which consisted of focused interviews and
documentation analysis. We developed a series of questions and discussion
topics to facilitate our interviews.

We interviewed DHS management officials and staff to obtain an
understanding of DHS’ approach to sharing terrorism-related information
using HSIN. These officials discussed their roles, responsibilities, and
activities related to planning and implementing HSIN. We collected and
reviewed numerous documents from DHS officials about their plans and
current initiatives for HSIN, too.

We visited seven state capitals and five major cities where we interviewed
various employees including political appointees, senior managers, and
intelligence analysts. We focused on the systems they used, the business
processes, communication with DHS, and training. We obtained information
on how HSIN is being used in the field and if DHS is providing the necessary
tools and guidance to the state and local governments. Where possible, we
obtained reports and other materials to support the comments and information
they provided during the interviews.

Specifically, we visited:

•   State homeland security advisors, to learn about the role of HSIN in the
    state-wide strategy for homeland security.
•   State police, to gain an understanding of how they utilize HSIN to process
    terrorism-related information.
•   State emergency management agencies, to understand how HSIN is used
    at the state level for emergency management and situational awareness.
•   State fusion centers, to learn about their role in coordinating intelligence
    gathering and analysis for states and facilitating with the HSOC.
•   State national guards, to understand how they are using HSIN in their
    operations.


Homeland Security Information Network Could                               Page 37
Support Information Sharing More Effectively
Appendix A
Scope and Methodology




•   Major city police departments, to learn how HSIN supports terrorism-
    related intelligence information sharing and analysis in large cities.
•   Major city emergency management agencies, to understand how HSIN is
    used at the city-level for emergency management situational awareness.
•   Major city fire departments, to learn about the role of HSIN in passing
    terrorism-related information with fire departments.

Additionally, we met with two external groups that have completed work on
terrorism-related information sharing. To gain a perspective on the roles of
related IT systems, we met with the Western State Information Network and
discussed its system’s role in the terrorism-related information sharing process
in relation to HSIN. Further, officials from the U.S. Department of Justice
Anti-Terrorism Advisory Councils described their role in facilitating
information sharing with state and local governments as well as how they
interact with various federal, state, and local entities.

We limited our audit of HSIN to a specific set of portals, focusing on the law
enforcement, law enforcement analysis, emergency management, secret,
special events, and the national capital region portals. Due to time and scope
limitations, we did not review the critical infrastructure, private sector, or
international portals. Throughout the course of this audit, we provided regular
updates to the DHS management on progress and discussed key issues
identified by the stakeholders.

We conducted our review from September 2005 to January 2006 at locations
in Harrisburg (PA); Sacramento (CA); Los Angeles (CA); Las Vegas (NV);
New York City (NY); Albany (NY); Boston (MA); Austin (TX); Springfield
(IL); Chicago (IL); Reisterstown (MD); Richmond (VA); Chantilly (VA); and,
the Washington (DC) metropolitan area. We performed our work pursuant to
the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards.

The principal OIG points of contact for the audit are Frank Deffer, Assistant
Inspector General for Information Technology Audits, and Sondra McCauley,
Director, Information Management. Major OIG contributors to the audit are
identified in Appendix C.




Homeland Security Information Network Could                              Page 38
Support Information Sharing More Effectively
Appendix B
Management Response to Draft Report




Homeland Security Information Network Could    Page 39
Support Information Sharing More Effectively
Appendix B
Management Response to Draft Report




Homeland Security Information Network Could    Page 40
Support Information Sharing More Effectively
Appendix B
Management Response to Draft Report




Homeland Security Information Network Could    Page 41
Support Information Sharing More Effectively
Appendix B
Management Response to Draft Report




Homeland Security Information Network Could    Page 42
Support Information Sharing More Effectively
Appendix C
Major Contributors to this Report




Information Management Division

Sondra McCauley, Director
Richard Harsche, Audit Manager
Steve Ressler, Auditor
Steven Staats, Auditor
William Matthews, Referencer




Homeland Security Information Network Could    Page 43
Support Information Sharing More Effectively
Appendix D
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Director, Office of Operations Coordination
Director, Homeland Security Operations Center
Program Manager, Homeland Security Information Network
Office of State and Local Government Coordination
Office of Information Sharing and Collaboration
Assistant Secretary, Office of Intelligence and Analysis
Under Secretary for Preparedness
Chief Information Officer
Chief Information Security Officer
Preparedness Directorate, Audit Liaison
Executive Secretariat
General Counsel
Assistant Secretary for Policy
DHS Legislative Affairs
DHS Public Affairs
DHS GAO OIG Audit Liaison


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Appropriate Congressional Oversight and Appropriations Committees




Homeland Security Information Network Could                         Page 44
Support Information Sharing More Effectively
                  Appendix D
                  Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




      Homeland Security Information Network Could                         Page 45
      Support Information Sharing More Effectively
